IN THE
SUPREME COURT OF THE UNITED STATES

KEVEN ANTHONY MORGAN-PETITIONER

VS.

STATE OF NORTH CAROLINA-RESPONDENT
PROOF OF SERVICE
I,Keven Anthony Morgan,do swear or declare that on this date 24 September 2020,as
required by the supreme court rule 29 I have served the enclosed MOTION FOR
LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that party counsel, and on every
other person required to be served,by depositing an envelope containing the above
documents in the UNITED STATES MAIL,properly addressed to each of them and with
first class postage prepaid.

7

